                                   UNITED STATES DEPARTMENT OF EDUCATION 

                                               OFFICE OF INSPECTOR GENERAL 

                                                    KANSAS CITY OFFICE 


                                              8930 Ward Parkway, Suite 2401
                                             Kansas City, Missouri 64114-3302

 AUDIT SERVICES                                                                                                  INVESTIGATION SERVICES
                                                  Telephone (816) 268-0500
FAX (816) 823-1398                                                                                                   FAX (816) 268-0526

   Dr. Richard L. Torgerson
   President
   Luther College                                          MAR 2 82003
   700 College Drive
   Decorah, Iowa 52101


   Dear Dr. Torgerson:

   This is our Final Audit Report presenting the results of our Audit of the Talent Search Program
   at Luther College. The objective of our audit was to detennine if Luther College administered
   the Talent Search program in accordance with the law (Higher Education Act of 1965, Section
   402B) and specific Talent Search regulations governing the documentation ofparticipant
   eligibility. Luther College officials did not concur with our finding or recommendations in their
   January 20,2003, response to our draft report. We have summarized the comments after the
   finding and recommendations and the full response is provided as an attachment to this letter.

                                                   AUDIT RESULTS

   We found that Luther College did not always administer its Federal Talent Search grant in
   accordance with applicable law and regulations. For the grant period September 1, 2001,
   through August 31, 2002, we estimate that Luther College served only 363 of the 625
   participants it was funded to serve, which is significantly less than the 600 participants required
   of Talent Search grantees. Therefore, by not meeting the required minimum number of
   participants, the Luther College Talent Search project is ineligible and all $219,567 of grant
   expenditures for the budget period were unallowable.

   Requirements for Talent Search Grantees and Regulatory Definitions

   For the 2001-2002 budget period, Luther College and the U.S. Department of Education
   (Department) agreed that the grant was to serve 625 participants (the target popUlation). This
   was more than the minimum 600 participants required to be served per the Talent Search
   regulations in 34 C.F.R. § 643.32 (b).




             Our mission is to ensure equal access to education and to promote educational exceUence throughout the Nation.
Final Audit Report                                                                             ED-OIG/A07-C0031

Participants must meet two conditions according to 34 C.F.R. § 643.7

           (b) Other definitions . . . Participant means an individual who—
           (1)    Is determined to be eligible to participate in the project . . .; and
           (2)    Receives project services designed for his or her age or grade level.

Department Talent Search program officials stated that they do not consider mailings as an
eligible service to participants of Talent Search programs to satisfy requirement (2) above.
Department officials also offered examples of adequate documentation to support services
provided, such as sign in sheets and needs assessments. The regulation at 34 C.F.R. § 643.32
(c)(3) requires grantees to maintain documentation to support the services rendered.

Some Talent Search Participants Claimed Did Not Receive an Eligible Service

We selected a random sample of 200 names from a list provided by Luther College of 610 Talent
Search participants claimed for the 2001-2002 budget period. We reviewed the files of all 200
participants selected and found that, although eligibility was documented for all 200, only 119
met the second part of the participant definition of receiving an eligible service during the budget
period. The Talent Search director or a Talent Search advisor confirmed that, of the 81
participants lacking evidence of an eligible service:

       •    68 participants received mailings (newsletter) only (an ineligible service); and
       •    13 files did not contain any documentation to support receipt of an eligible service.1

Based on our statistical sample, we estimate that Luther College only served 363 eligible
participants during the 2001-2002 budget period.2

Since its beginning in August 1998, the Talent Search program at Luther College has had three
program directors. The newness of the program and personnel turnover may have contributed to
the College’s difficulties in meeting its Talent Search target number. Luther College’s Talent
Search Director suggested that it would be helpful if the Department had more training
information such as standard forms, a data library for new directors to reference, and published
best practices.



1
  Although a service may have been noted in the computerized student management database, system errors made
the service noted in the database unreliable. For example, we observed instances where a service recorded in the
database pre-dated the participant’s enrollment date.
2
    We are 90% confident that the participants receiving eligible services total 363 +/- 8.71 percent.



                                                        2                                                 

Final Audit Report                                                                    ED-OIG/A07-C0031

The 363 participants are significantly below both the 625 participant target population for which
Luther College was funded and less than two thirds of the required 600 minimum participants of
a Talent Search grantee. Therefore, Luther College was not in compliance with regulatory
requirements for the period September 1, 2001, through August 31, 2002, and all $219,5673
expended for that budget period was unallowable.

Recommendations:

We recommend that the Assistant Secretary for Postsecondary Education require

1. Luther College to:

    1.1 Refund the entire $219,567 expended during its Talent Search program for the 2001-2002
        budget period.

    1.2 Establish procedures to ensure that only those participants receiving eligible services are
        counted as Talent Search participants and that those services are properly documented.

2. The Department’s Director of Federal TRIO Programs to:

    2.1 Perform ongoing monitoring of the current Luther College Talent Search project to
        determine whether the College will be able to meet required minimum participant
        numbers or should have its grant withdrawn.

    2.2 Review Luther College’s three prior budget periods (1998, 1999 and 2000) to verify that
        the participant numbers were met in each budget period and take appropriate action.

Auditee Response

Luther College did not concur that mailings (newsletters) are an ineligible service or that the
Blumen database entries were not sufficient documentation of services. The college claimed that
the language in the Talent Search regulations and Departmental guidance does not exclude
newsletters from eligible services and that the newsletters provide both “academic advising” and
“counseling” services. The college also noted that “in very, very few cases” was the newsletter
the only contact with students during their involvement with the program. The response also
stated that the Blumen database meets and exceeds the requirements for documenting services
and that any problems were remedied prior to completing their participant count. Even though
3
 The expended amount for the 2001-2002 year is the sum of the award amount of $212,428, plus the carryover
amount of $7,139, from previous award years.


                                                  3                                                   

Final Audit Report                                                           ED-OIG/A07-C0031

the College disagreed with our finding and recommendations, they reported taking corrective
actions to increase personal contact with program participants and to maintain supporting
documentation on services provided outside of the electronic system of records.

OIG Response

Newsletters: An individual may receive a mailing, however, there is no assurance that the
claimed participant has received a service. Our audit report concluded that if Luther College
provided no other services to participants but the mailings of newsletters, the sending of those
newsletters did not constitute participant receipt of an eligible project service. We believe the
definition of participant at 34 C.F.R. § 643.7 (b) (2) “Receives (emphasis added) project services
designed for his or her age or grade level.” describes the intent of the Talent Search program
regarding service to participants. A mailing may inform an individual about a service, but unless
the recipient of the mailing avails her/himself of the service, she/he has not received the service.
Mailing a newsletter does not ensure that the addressee will read it or, for that matter, even
receive it.

We also believe that, although newsletters may contain some of the information that might be
shared in an “academic advising” or “career counseling” activity as the College claims, both
advising and counseling imply a personal communication between the provider and recipient of a
service. Both activities also generally mean that the participant is provided individualized
information and services based on the student’s questions or circumstances. A newsletter, by its
nature, provides information for the general population instead of the personal assistance
provided in an advising or counseling session.

Furthermore, based on discussions with program officials, the Department of Education does not
consider newsletters as project services.

Blumen database: The issue is not whether the database itself is reliable, but that the information
contained in the database could be relied on. As stated elsewhere in the report, we conducted
routine testing of the system for data reliability. As noted in footnote 1, we found instances
where a service was posted prior to the participant’s acceptance into the program. In addition,
we discovered instances when a staff member batched an activity and it posted to all
participants’ accounts listed in the system. There was no way for us to know whether the service
was received or if it was entered in error. Based on these observations, as well as statements
made by Luther College Talent Search staff, we determined that the information contained in the
system was unreliable. Finally, 2 of the 13 individuals lacking documentation did not have any
service after enrollment in the program recorded in the database at all.




                                             4                                              

Final Audit Report                                                            ED-OIG/A07-C0031

In its response, Luther College did not provide any additional documentation for consideration to
support project services to the 81 participants determined to be ineligible. Therefore, Luther
College was not in compliance with Department of Education legislation and regulations during
the period of review.

                                         BACKGROUND

Luther College is located in Decorah, Iowa. It is an independent, coeducational, residential,
undergraduate liberal arts college affiliated with the Evangelical Lutheran Church in America.
The Norwegian Evangelical Lutheran Church founded the college in 1861. The student
enrollment at Luther College is approximately 2,600.

Luther College was awarded a four-year Talent Search grant covering the performance period
September 1, 1998, through August 31, 2002 (P044A980394). The College participates in other
TRIO programs, but this was its first Talent Search grant. For the 2001-2002 budget period,
Luther College was awarded $212,428 to provide services to 625 participants and a $10,000
supplemental technology grant awarded to all Talent Search projects. The Talent Search project
administered by the college targeted 17 school districts within a 50-mile radius of the college.
The 17 school districts lie within the rural counties of northeast Iowa and southeast Minnesota.

Title IV of the Higher Education Act of 1965, as amended (20 U.S.C. 1070a-11 and 12),
authorizes the Talent Search program, one of the U. S. Department of Education’s TRIO
programs. The Talent Search program is governed by the regulations codified in Title 34 C.F.R.
643. All regulatory citations in the report are to the codification in effect as of July 1, 2001.

The Talent Search program provides grants to projects designed to (1) identify qualified youths
with potential for education at the postsecondary level and encourages them to complete
secondary school and undertake a program of postsecondary education; (2) publicize the
availability of student financial assistance for persons who seek to pursue postsecondary
education; and (3) encourage persons who have not completed education programs at the
secondary level, but who have the ability to do so to reenter these programs. 34 C.F.R. § 643.1.

                   AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if Luther College administered the Talent Search
program in accordance with the law and specific Talent Search regulations governing the
documentation of participant eligibility. Specifically, we sought to determine whether
participants met the twofold requirements of (1) eligibility and (2) receipt of eligible services
during the budget period.


                                              5                                              

Final Audit Report 	                                                                          ED-OIG/A07-C0031



To accomplish our objective, we

    • 	 reviewed applicable Federal law and regulations,
    • 	 reviewed files relating to the Talent Search project at Luther College and at the 

        Department’s TRIO program office located in Washington, D.C., 

    • 	 interviewed Luther College and Department of Education personnel,
    • 	 determined whether the TRIO cluster had been audited by the College’s Certified Public
        Accountants,
    • obtained and analyzed documents related to the Talent Search project at Luther College,
        e.g. organization chart, College policies and procedures, and
    • 	 randomly selected 200 Talent Search participant files from a universe of 6104 to test
        participant eligibility and documentation of eligible service. All student files selected in
        the sample were reviewed.

We relied upon the data contained in the Talent Search computerized student management
software (Blumen) for establishing the Talent Search population from which we drew our
sample. However, we did not rely upon the Blumen software for documenting services received.
We evaluated the relevant general and application controls, and tested the data for accuracy and
completeness by comparing source records to computer data and comparing computer data to
source records. Based on these assessments and tests, we concluded that the participant listing
was sufficiently complete, however, system errors resulted in services being posted to
individuals who had not participated in the activity. Therefore, we concluded the population
data were sufficiently reliable to be used for a sample population, however services data could
not be used in meeting the audit’s objective. An extract of payment and award data from the
Department’s Grants and Payments System (GAPS) was used to corroborate information
obtained from the College’s accounting system. We found that the College’s accounting data
was sufficiently reliable for our audit purposes.

The audit covered the 2001-2002 grant budget period (September 1, 2001, through August 31,
2002). We visited the Department’s TRIO program offices located in Washington D.C. from
July 31, 2002, to August 2, 2002. Fieldwork was conducted at Luther College from September
9, 2002, to September 13, 2002, and we held an exit conference with officials of Luther College
on September 13, 2002. Our audit was conducted in accordance with generally accepted
government auditing standards appropriate to the scope of review described above.



4
  We were provided a list of 613 individuals: however, college officials stated that three of the participants listed had
received no service during the period and were removed from the sample universe.


                                                       6                                                       

Final Audit Report                                                            ED-OIG/A07-C0031

                      STATEMENT ON MANAGEMENT CONTROLS 


As part of our review we assessed the system of management controls, policies, procedures, and
practices applicable to Luther College’s administration of the Talent Search program. Our
assessment was performed to determine the level of control risk for determining the nature,
extent, and timing of our substantive tests to accomplish the audit objective.

For the purpose of this report, we assessed and classified the significant controls into the
following categories:

   •   Services provided to participants
   •   Participant eligibility
   •   Program record maintenance

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed management control weaknesses, which adversely affected
Luther College’s ability to administer the Talent Search program. These weaknesses included
noncompliance with Federal regulations related to participant services resulting in participant
ineligibility and deficient record maintenance procedures. These weaknesses and their effects are
fully discussed in the AUDIT RESULTS section of this report.

                                ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determination of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

                   Sally Stroup, Assistant Secretary 

                   Office of Postsecondary Education 

                   U.S. Department of Education 

                   1990 K Street, NW


                   Washington, DC 20006 





                                              7                                                

  Final Audit Report 	                                                        ED-OIG/A07-C0031


  Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
  resolution of audits by initiating timely action on the findings and recommendations contained
  therein. Therefore, receipt of your comments within 30 days would be greatly appreciated.

  In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued to the
  Department's grantees and contractors are made available, if requested, to members of the press
  and general public to the extent information contained therein is not subject to exemptions in the
  Act.

  If you have any questions, please contact me at 816-268-0500.

  Sincerely,


  (~.o~
~ William
   	 Allen
  Regional Inspector General for Audit

  Attachment

  cc: 

  Sally Stroup, Assistant Secretary, Office of Postsecondary Education 


  Electronic cc: 

  Jay Noell, Audit Liaison Officer 

  Harold Jenkins, Office of General Counsel 

  William D. Hansen, Deputy Secretary 

  John Danielson, Chief of Staff 

  Eugene Hickok, Under Secretary 

  John Gibbons, Director, Communications 

  Jack Martin, Chief Financial Officer 

  Clay Boothby, Acting AS, Legislation and Congressional Affairs 

  Laurie M. Rich, AS, Intergovernmental and Interagency Affairs 

  Carolyn Adams, OGC (Correspondence Control) 

  L'Wanda Rosemond, General Operations Team 

  Charles Miller, Post Audit Gr.oup, OCFO 

  Headquarters and Regional Audit Managers 





                                              8

                                             MHER 

                                             (OLLEGE 

                                  Richard L. Torgerson, Ph.D., President




                                                                                        JAN 28 2003

January 20,2003


William Allen
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
8930 Ward Parkway, Suite 2401
Kansas City, MO 64114-3302

Dear Mr. Allen:

We received the Draft Audit Report (Control Number ED-OIGIA07C0031) of the September
2002 audit ofthe Educational Talent Search program at Luther College. As requested, please
find attached our written response about the findings and recommendations contained in this
report. We appreciate the opportunity to review our program so that we may improve services
for the program participants.

Thank: you for the opportunity to respond to the Draft Audit Report.




RLTllls




                          563.387.1001   P   563.387.21.95   F   rtorgersoluther.edu
              Luther College   700 College Drive    Decorah, Iowa 52101-1045           _.Iuther.edu
                   RESPONSE TO DRAFT AUDIT REPORT
                     (Control Number ED-OIG/A07C0031)


After reviewing the Draft Audit Report (Control Number ED-OIGIA07C0031) dated December
24, 2002, we offer the following response. We want to emphasize that we are very desirous to be
compliant with all legislation, regulations, and directives for the Educational Talent Search
program.


Summary of Response
We do not concur with the findings or recommendations of the program review conducted by the
Office of the Inspector General in September 2002. This review finds

    1. 	 a) Newsletters were not "countable" as project services;
         b) The Blumen database was not sufficient as documentation of services.
         Therefore, students who received only mailings or whose services were documented only
         through the Blumen database were not counted as participants.
    2. 	 Therefore, the Luther College Educational Talent Search program did not serve the
         number of participants it reported.
    3. 	 Therefore, the Luther College Educational Talent Search program was not in compliance
         with Department of Education legislation and regulations about participant numbers.

We respond, in brief,

    1. 	 a) Newsletters are project services;
         b) Blumen database meets and exceeds requirements for documentation of services.
         Therefore, students who received these services and/or whose services were documented
         through Blumen should be counted as participants.
    2. 	 Therefore, the Luther College Educational Talent Search served the number of students it
         reported.
    3. 	 Therefore, the Luther College Educational Talent Search was and is in compliance with
         the Department of Education legislation and regulations.

Elaboration of Response: Findings
In staff development workshops, trainers have always emphasized the importance of relating
every program activity and decision to the legislation and regulations concerning Talent Search.
This we have done. Therefore, our response begins with the relevant legislation and regulatjons
and related remarks concerning participation, services, and recordkeeping. All regulatory
citations are to the codification in effect as of July 1, 2001.
I. Relevant legislation and regulations:

Purposes 

HEA Section 402B. Talent Search (also CFR 643.1) 

           (a) Program Authority. The Secretary shall carry out a program to be known as
               talent search which shall be designed
                      (1) to identify qualified youths with potential for education at the
                          postsecondary level and to encourage such youths to complete
                          secondary school and to undertake a program of postsecondary
                          education
                      (2) to publicize the availability of student financial assistance available to
                          persons who pursue a program of postsecondary education; and
                      (3) to encourage persons who have not completed programs of education
                          at the secondary or postsecondary level, but who have the ability to
                          complete such programs, to reenter such programs.

Services

HEA Section 402B. Talent Search (also CFR 643.4)
          (b) Permissible Services. Any talent search project assisted under this chapter may
              provide services such as

                       (1) academic advice and assistance in secondary school and college course
                            selection
                       (2) assistance in completing college admission and financial aid
                            applications
                       (3) assistance in preparing for college entrance examinations;
                       (4) guidance on and assistance in secondary school reentry, entry to
                            general educational development (GED) programs, other alternative
                            education programs for secondary school dropouts, or postsecondary
                            education;
                       (5) personal and career counseling or activities designed to acquaint
                            individuals from disadvantaged backgrounds with careers in which the
                            individuals are particularly underrepresented;
                       (6) tutorial services
                       (7) exposure to college campuses as well as cultural events, academic
                            programs and other sites or activities not usually available to
                            disadvantaged youth;
                       (8) workshops and counseling for families of students served;
                       (9) mentoring programs involving elementary or secondary school
                            teachers or counselors, faculty members at institutions of higher
                            education, students, or any combination of such persons;
                       (10) programs and activities as described in paragraphs (1) through (9)
                       which are specially designed for students of limited English proficiency
                       (11 )other activities designed to meet the purposes of the Talent Search
                       program stated in 643.1, including activities to meet the specific
                       educational needs of individuals in grades six through eight.
Comments on 643.4 from Appendix

                      What Services Maya Project Provide? (643.4)

                      Discussion: The Secretary encourages applicants and grantees to exercise
                      reasonable professional judgment when designing and delivering services.
                      The Secretary finds that it would be inappropriate to delineate, with greater
                      specificity, the types of services that may be provided by a Talent Search
                      project. By listing a broad range of permissible services, the Secretary
                      intends to encourage applicants to identify from a wide variety of
                      possibilities the means of furthering the purposes ofthe Talent Search
                      program in their communities.

Relevant Definitions from APR

                      Counseling means assistance with personal, educational, and career
                      decision making.

                      Academic advising/course selection means assisting students in making
                      educational plans, selecting appropriate courses, meeting academic
                      requirements, and planning for high school graduation and admission to a
                      postsecondary educational institution.

                      Family activities means events, workshops, meetings, and counseling
                      designed to provide families with information on postsecondary
                      educational opportunities and financial aid available and to involve them in
                      the educational decisions oftheir children.



List of Services Provided by the Talent Search Program:
[www.ed.gov/officesiOPEIHEP/trio/talent.html]

                          • 	 Academic, financial, career, or personal counseling including
                              advice on entry or re-entry to secondary or postsecondary
                              programs
                          • 	 Career exploration and aptitude assessment
                          • 	 Tutorial services
                          • 	 Information on postsecondary education
                          • 	 Exposure to college campuses
                          • 	 Information on student financial assistance
                          • 	 Assistance in completing college admissions and financial aid
                              applications
                          • 	 Assistance in preparing for college entrance exams
                          • 	 Mentoring programs
                          • 	 Special activities for sixth, seventh, and eighth graders
                          • 	 Workshops for the families of participants
Participant

CFR 643.7(b) Participant means an individual who
   (1) Is determined to be eligible to participate in the project under 643.3; and
   (2) Receives project services designed for his or her age or grade level


Recordkeeping

643.32(c)Recordkeeping. For each participant, a grantee shall maintain a record of­
    (1) The basis for the grantee's determination that the participant is eligible to participate in
        the project under 643.3
    (2) The grantee's needs assessment for the participant;
    (3) The services that are provided to the participant; and
    (4) The specific educational progress made by the participant as a result of these services

Dear Talent Search Project Director cover letter for APR 2002
       Last year 95% of the Talent Search and EOC projects submitted the 2000-2001
       performance report via the Web; this year we expect all projects to use the Web reporting
       feature.

Dear Applicant Letter from 2002 Educational Talent Search grant guideline
   6. 	 Talent Search and Educational Opportunity Center applicants are encouraged to describe
        how the project will use technology in managing the grant and in providing services,
        information, and assistance to participants.


ll. 	Luther College Implementation of Regulations:

    1. 	 As did the auditors, we use the definition of participant (listed above) that is part of the
         Talent Search regulations. We disagree with the audit report's interpretation of
         "services." Relevant regulations and legislation about services are listed above. The
         audit report discounts the newsletter as a service and therefore discounts those
         participants who received only newsletters and other mailings. However, nowhere in the
         lists of services is there language that states or implies that newsletters and other
         informational mailings are excluded as eligible services.

    2. 	 We believe that the newsletter is an important activity of our program and provides both
         "academic advising" and "counseling" as its services. Perhaps it could also be counted as
         a "family activity" since it provides counseling to families, although we have not counted
         it this way. The monthly newsletters, sent to all students, routinely include age­
         appropriate

              •	  Study skills, test-taking, and homework tips (academic advising)
              •	  College readiness tips (academic advising)
              •	  Information about colleges and the application process (academic advising)
              •	  Financial aid and scholarship information (academic advising)
              •	  Information about careers, including careers in which ETS participants are likely
                  to be underrepresented (counseling)
              • 	 Motivational tips and values discussions (counseling)
    In this way, the newsletter reinforces the curriculum provided in the school visits and
    workshops and enables those students who are unable to make school meetings to receive
    this important information.

    It has the further advantage of making this information available to parents and other
    family members who are not able to attend school meetings and workshops.

    Thus, we believe that our newsletters provide important services to participants by 1)
    providing information that participants may have missed because they were unable to
    attend regularly scheduled school meetings; 2) providing reinforcement of information,
    encouragement, and support provided to students who attended meetings; 3) providing
    reinforcement of information from teachers, guidance counselors, and school officials
    about school success and college readiness; 4) providing additional reminders of
    important deadlines in the college search and financial aid process for juniors and seniors
    and their parents; 5) providing information about educational and cultural opportunities
    offered to participants and families; and 6) promoting parent involvement in the academic
    progress of their children.

    Note that we do not believe it is desirable to have students' only contact with us to be
    newsletters. In fact, we think this is most unfortunate. We strongly encourage
    participants and families to take advantage of the many services that the program offers.
    (See Appendix for this list.) In very, very few cases is the newsletter our only contact
    with students during their involvement with the program. We have worked and continue
    to work (see below for steps) to encourage and enable all students to meet individually
    and in groups with advisors and to attend activities and workshops. However, we believe
    that the newsletter helps the program to fulfill its purposes for students even when they
    are not able to attend meetings and activities. We also believe that it has the important
    value of making information available to parents and families as well as to participants.

3. 	 Based on our positive experience with the latest version of the Blumen software, we have
     found that the Blumen database not only satisfies but far exceeds the requirements for
     documentation of program services. Recordkeeping, as the legislation above explains,
     must include, for each participant, the record of eligibility, the need for services, the
     services provided, and the academic progress that results from those services. The
     Blumen database enables this information to be recorded and reported. Furthermore,
     because it is a highly versatile database, the information can be manipulated in a number
     of additional ways for reports-a useful function as we monitor and assess program
     objectives. A more complete description of this database is included in the Appendix.
     We have used the Blumen database since the beginning of the program (1999). We have
     relied more and more heavily on it as our central recordkeeping system, in keeping with
     the Department of Education emphasis on technology use for program reporting,
     although we have always kept a paper file on each student as well.

    As noted above, Talent Search programs have been strongly encouraged to use
    technology in recordkeeping and service provision. The APR must be submitted
    electronically, for instance; programs were given technology grants in 2001-2002; and
    new grant applicants were directed to list ways they would use technology in their
    programs. Technology has been emphasized in conferences and workshops. In moving
    toward a paperless recordkeeping system, we believed we were following the directives
    of the Department of Education.
    We note that we have not been entirely satisfied with Blumen and seriously considered
    dropping the database in 2000. But in 2001, with program updates and support
    improvements, we became much more confident about the reliability and versatility of
    the program. Though we continue to find glitches, we work with the Blumen technical
    support personnel to remedy them. When the Office of the Inspector General audit team
    came, we provided them with a list of those problems we had encountered as we prepared
    the end ofthe year report-including the problem mentioned in footnote 1. We remedied
    these and other problems on the list so that the APR was complete and accurate. (We can
    provide more information about Blumen glitches, if desired.)


Corrective Actions to Improve the Program

As stated earlier in this document, we will vigorously continue to seek improvement in our
Educational Talent Search program. We are very desirous to be compliant with all
Department of Education legislation, regulations, and directives. Therefore, we have detailed
the steps below that we have already taken and will continue to take to improve the Luther
College Talent Search program. We welcome the Department of Education support as we
work to improve our services to students.


Steps:

                            )


1. 	 Services: Our major goal is to continue to improve the quality and quantity of our service
     to students. We have ensured that we keep a schedule of regular school visits so that all
     students are enabled to see us individually and/or in groups. Although we have a large
     geographical area and many schools, this is a challenge that we have always been able to
     meet.

    A related goal has been to increase service to those students who, for whatever reason,
    have not availed themselves of program services, apart from receiving newsletters. This
    fall, we made it a top priority to see all students at least once (even if they did not attend
    school visits, workshops, or events) and to move those students to an "inactive" category
    ifthey do not wish to participate or no longer feel they need services. By June 15, we
    plan to see all students at least twice. (For those few students whom we are unable to see
    face to face, we will conduct conversations through email or phone.) In these meetings,
    we can (a) encourage students to become more active, (b) ensure that they have received
    the newsletters and mailings and know about activities and services, (c) check academic
    progress, and (d) determine if students feel they continue to need program services.
    Please note that we consider such contact minimal; we provide opportunities for most
    students to see an advisor at least once or twice monthly.

    We also have continued to work on the quality and depth of our curriculum as it "closes
    the gaps" of the regular school curricula and guidance information. Last summer, we
    assembled and catalogued forms, lessons plans, and activities, arranged by age (middle
    school, high school, adult), for study skills, college search, career search, and values.
    While we had all used similar materials in our workshops and school visits, we had not
        necessarily pooled this information. We continue to add to and change this central
        curriculum resource.

        We continue to offer workshops and activities to encourage the active participation of all
        students. We continue to monitor the needs of participants and to provide appropriate
        services.

    2. 	 Recordkeeping: We have changed our documentation procedures so that we have paper
         as well as electronic documentation of virtually all services. Each school visit and
         activity now has paper as well as electronic documentation.

        New Procedure (provides electronic and paper record)

            a) 	 For school visits, advisors complete cover sheet detailing activity (content,
                 amount of time, group or individual) with students
                 Advisors attach dated sign-up sheet of participants
                 Student worker enters service information in Blumen based on paper information
                 Student worker and advisor double-check data entry
                 Student worker photocopies paper form and sign-up sheet
                 Advisors file paper copies of Blumen entries/sign-up sheets
                 Student worker files contact information, when appropriate, in participant files

            b) 	 For newsletters, administrative assistant enters on database and keeps file copy

            c) 	 For group activities, field trips, and workshops, administrative assistant enters on
                 database and files sign-up sheet.

            d) 	 Exception: For phone calls, paper backup is usually not provided, unless a
                 follow-up letter is typed and filed. These contacts are put directly into the
                 database and are marked as phone calls.


We are happy to provide any additional information and documentation, as required.


Elaboration of Response: Recommendations

Because we do not concur with the findings of the Office of the Inspector General Draft Audit
Report ED-OIGIA07C0031, we do not concur with their recommended sanctions of the Talent
Search Program at Luther College. However, we welcome the opportunity to work with
Department of Education officials to improve the provision and documentation of services.

We appreciate the opportunity to respond to the Draft Audit Report (Control Number ED­
OIGIA07C0031.


Appendix: List of ETS Services
          Blumen Description
            Services Offered By Educational Talent Search (ETS) 

 Junior High/Middle School               Senior High School                          Adult 

        (1l~14years)                         (14~18 years)                       (18~ 27 years)    


                                       ACADEMIC ADVISING                    ACADEMIC ADVISING
   ACADEMIC ADVISING
                                      ACT/SAT PREPARATION 
                ACT/SAT PREPARATION 

                                         Information packets 
                Information packets 

                                             Practice tests 
                     Practice tests 

                                    Fee waivers for eligible students 


  CAREER EXPLORATION 
                CAREER EXPLORATION 
                 CAREER EXPLORATION 

     Career counseling 
                  Career counseling 
                  Career counseling 

     Career assessments 
                 Career assessments 
                 Career assessments 


   COllEGE PLANNING 
                   COllEGE PLANNING 
                  COllEGE PLANNING 

  Post~secondary information    
     Post~secondary information     
     Post~secondary information      

        Campus visits 
                     Campus visits 
                     Campus visits 

                                          Admissions process 
                Admissions process 


CULTURAL OPPORTUNmES 
              CULTURAL OPPORTUNmES 
                CULTURAL OPPORTUNmES 

          Field trips 
                        Field trips 
                       Field trips 

       Work~site visits   
                 Work~site visits   
                Work~site visits       


      FINA.!\l"CIAL AID 
                  FINANCIAL AID 
                      FINANCIAL AID 

  Federal/State Information 
          Federal/State Information 
          Federal/State Information 

                                          Application process 
                Application process 

                                        Scholarship information 
            Scholarship information 


  MENTORING SERVICES                  MENTORING SERVICES                   MENTORING SERVICES

 MOnvA110NAL AcnvmEs                MOnvATIONAL AcnvmEs                   MOnvA110NAL ACTIVITIES

  SELF~ES1EEM AcnvmEs                SELF~ES1EEM AcnvmEs                   SELF~ES1EEM AcnvmEs


       STUDY SKILLS 
                       STUDY SKILLS 
                       STUDY SKILLS 

      Note taking skills 
                Note taking skills 
                 Note taking skills 

      Test taking skills 
                Test taking skills 
                 Test taking skills 

      Tune management 
                   Tune management 
                    Tune management 


  TUTORING ASSISTANCE 
               TUTORING ASSISTANCE 

     Trained/paid tutors 
                Trained/paid tutors 


FOR ASSISTANCE IN ANY OF THESE ACADEMIC AREAS OF SERVICE PLEASE CALL
(563)387,1297 OR 1,800,4LUTHER. EXTENSION NUMBER: 1297.
                                                                              BLUMEN MADE
                                                                                 MY LIFE
                                                                               EASIER!!!!!




   The most popular software to help you run your project more efficiently at an unbeatable price!!!




Blumen is a contact management software that allows you to enter client information and produce reports for data
analysis. Blumen is specially developed to help counselors at universities, colleges, schools, business offices and
medium sized private companies to track clients and log contacts for them.

HOW TO GET ORGANIZED AND STAY THAT WAY 

Still using Excel, Filemaker Pro, Access etc. to organize your clients?? 

Maybe you and your department needs something more sophisticated than client names pinned to a bulletin board to keep track
of your key contacts. Blumen organizes your client information in one place. It comes with an easy-to-use, full-featured database
with predefined fields and additional customizing fields for your specific needs and allows you to store complete contact
information including name, university, school, grade, phone numbers, address, website, e-mail address, and much more. With
Blumen you can keep history of conversation and completed activity. Other advantages of Blumen are that you can find anyone or
any detail quickly using the instant Lookup feature.


TIME MANAGEMENT SOLUTIONS THAT WORK
How to avoid falling into the trap of working more and accomplishing less??
Blumen tries to minimize your work load and allows you to accomplish more in less time. The software has a built in feature to
write personalized letters, e-mail broadcast and mall merge to hundreds. Blumen has more than 125 built in statistical and
managerial reports and you can also create unlimited customized reports. With Blumen you can view and print monthly/ quarterly/
annual reports in seconds. You can also save the report in various formats like fixed-length, comma-separated, tab-delimited or
HTML format or export any report to Excel, Word or other database applications.


                                                      CLIENT CONTACT & APPOINTMENT REMINDERS
                                                      Do you still tally your contacts manually??
                                                      The main power behind Blumen is its capability to track services
                                                      provided to the clients. Using the Contact Log, you can track every
                                                      contact you make with your client. Get a bird's eye view of
                                                      everything on your contacts using the built-in Contact List where you
                                                      can filter by counselor, advisor, staff or date range. Print a detailed
                                                      contact report which summarizes the logged hours by each service,
                                                      counselor, advisor or client. Blumen will also remind you of your
                                                      future appointments with your clients.
POWERFUL FEATURES THAT HELP YOU GET THE JOB DONE
How to recognize the powerful features of a tracking software??
Blumen can work on various operating systems (Windows and Macintosh). It is network ready
for multiple users and counselors that are out on the field can also record contacts by using the
Remote Access feature. You can also analyze your data visually using graphs, pie charts and
bar charts. Blumen has an exceptional feature for screen level security. Blumen provides
extensive password security throughout the product allowing you to restrict access to specific
screens where you don't want data entry personnel to make entries.


TECHNOLOGY AT ITS' BEST

LIVE WEB TRAINING 

Everyone agrees that training is vital in today's fast-moving and highly competitive business 

environment. The problem comes in delivering the level of training you need within shrinking 

time frames and shrinking budgets. Live Web Training delivers the human interaction benefits 

of classroom learning, combined with the convenience of the Internet without leaving the 

workplace or home, saving you in travel costs and time. 


SELF PACED WEB TUTORIAL 

If you want a comprehensive learning experience, but prefer a more independent approach, try 

our self-paced web tutorial. This tutorial is available 24 hrs a day 7 days a week and is very 

cost effective than just any other learning option. 


LIVE WEB SUPPORT 

Even with the best phone support sometimes the customer still requires a more intensive 

support. Live web support is an interactive customer service environment that's significantly 

more personal and more effective. It is as good as our support specialist being at your site 

while still being miles away from you. 




STILL NOT SURE TO PURCHASE BLUM EN?? 

Visit our web site at www.compansol.com for a FREE DEMO and try it on your own. 


STJLL NOT CONVINCED ?? 

Visit our site at www.compansol.com and sign-up for LIVE WEB DEMO. You will see a live 

demonstration of the Blumen software and can ask questions to the presenter. 



                                                CUSTOMER SUPPORT THAT
                                                REALLY MAKES A DIFFERENCE
                                                One year FREE Technical Support
                                                Unlimited E-Mail Support
                                                Unlimited TOLL FREE Phone Support
                                                Unlimited LIVE WEB Support
                                                On-line Message Board
                                                Hands-On Computer Training
                                                On-Site Training
                                                Updates and Upgrades at discounted prices


                                                GOT QUESTIONS??
                                               If you have any questions, please visit our web
                                               site at www.compansol.com. give us a call at
                                               1-800-597-8204 or send us an e-mail at
                                               support@compansol.com
